Case: 19-3699

Document: 39

Page: 1

Date Filed: 08/03/2020

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-3699

ANDREW MOYNIHAN; KAREN MOYNIHAN,
Appellants
v.

WEST CHESTER AREA SCHOOL DISTRICT; PENNSYLVANIA OFFICE FOR
DISPUTE RESOLUTION

On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civil Action No. 2-18-cv-04388)
District Judge: Honorable Nitza I. Quinones Alejandro

Submitted Pursuant to Third Circuit LAR 34.1(a)
May 19, 2020
Before: AMBRO, GREENAWAY, Jr., and PORTER, Circuit Judges
(Opinion filed: August 3, 2020)

OPINION*

PER CURIAM
Pro se appellants Andrew and Karen Moynihan appeal from the District Court’s

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.

Case: 19-3699

Document: 39

Page: 2

Date Filed: 08/03/2020

order dismissing their complaint for lack of subject matter jurisdiction. For the reasons
discussed below, we will we will affirm in part, vacate in part, and remand for further
proceedings consistent with this opinion.
I.
Because we write primarily for the parties, we will recite only the facts necessary
for our discussion. Beginning in 2016, the Moynihans filed a series of administrative
complaints with the Pennsylvania Office of Dispute Resolution (“ODR”) against the
West Chester Area School District (the “School District”). They claimed that the School
District violated the Individuals with Disabilities Education Act, see 20 U.S.C. § 1400 et
seq.. by failing to provide their then-minor child, who has Asperger Syndrome and Social
Anxiety Disorder, with a free appropriate public education (“FAPE”) in his ninth, tenth,
and eleventh grade school years. An administrative hearing officer denied the
administrative claims in 2018.
The Moynihans, proceeding pro se, see Winkelman ex rel. Winkelman v. Parma
City Sch. Dist., 550 U.S. 516, 535 (2007), then filed a complaint in the District Court
against the School District and ODR. The Moynihans requested that the District Court
“reverse the Decisions of the [administrative hearing officer] as they are stated in Exhibit
‘A’ and find in our favor in all matters set forth therein.” ECF No. 2 at 19. The exhibit
indicated that the Moynihans had sought, among other relief, “reimbursement for . . . out
of pocket expenses” incurred in the school years when their son was allegedly denied a
2

Case: 19-3699

Document: 39

Page: 3

Date Filed: 08/03/2020

FAPE. ECF No. 2 at 21.
The District Court granted ODR’s motion to dismiss for failure to state a claim. i
The District Court dismissed the remaining claims against the School District sua sponte
for lack of subject matter jurisdiction, finding that the Moynihans had requested only
injunctive relief, and that such claims for relief were mooted by their son’s graduation.
This appeal ensued.
II.
We have jurisdiction under 28 U.S.C. § 1291. See D.F. v. Collingswood Borough
Bd. of Educ., 694 F.3d 488, 495-96 (3d Cir. 2012). We review de novo the District
Court’s dismissal for lack of subject matter jurisdiction. See Metropolitan Life Ins. Co.
v. Price. 501 F.3d 271, 275 (3d Cir. 2007). We construe the Moynihans’ pro se
complaint liberally. See Erickson v. Pardus, 551 U.S. 89, 94 (2007) (per curiam).
III.
To the extent that the complaint sought declaratory and injunctive relief, those
claims were mooted by the graduation of the Moynihans’ son. See Donovan ex rel.
Donovan v. Punxsutawnev Area Sch. Bd., 336 F.3d 211,216 (3d Cir. 2003) (explaining
that, when a student challenges a school policy, “graduation typically moots her claim for
injunctive or declaratory relief’); see also Brown v. Bartholomew Consol. Sch. Corn.,

1 The Moynihans do not challenge the District Court’s ruling that they failed to state a
claim against ODR, and we will affirm that ruling.
3

Case: 19-3699

Document: 39

Page: 4

Date Filed: 08/03/2020

442 F.3d 588, 598 (7th Cir. 2006); Lillbask ex rel. Mauclaire v. Conn. Dep’t of Educ.,
397 F.3d 77, 91 (2d Cir. 2005). Thus, we will affirm the District Court’s dismissal of
those claims for lack of subject matter jurisdiction. See Donovan, 336 F.3d at 216.
However, the Moynihans argue that their pro se complaint also brought claims for
reimbursement and for compensatory education; and, construing their complaint liberally,
we agree. The Moynihans sought reimbursement in the administrative proceedings. See
ECF No. 2 at 21. Thus, when they requested that the District Court “reverse the
Decisions of the [administrative hearing officer] . . . and find in our favor in all matters
set forth therein,” ECF No. 2 at 19, the Moynihans incorporated their claims for
reimbursement. Those claims are not moot. See Collingswood, 694 F.3d at 497-98
(holding “that a claim for compensatory education is not rendered moot by an out-of­
district move”); see also Olu-Cole v. E.L. Haynes Pub. Charter Sch., 930 F.3d 519, 531
n.2 (D.C. Cir. 2019) (explaining that a student’s graduation “does not affect our mootness
analysis because [the student] remains eligible for compensatory education”); Brown,
442 F.3d at 597 (noting that several “circuits have held that a claim for ‘reimbursement
can defeat a mootness challenge’”) (quoting Lillbask, 397 F.3d at 89). Thus, we will
vacate the District Court’s order in part and remand for further proceedings on those
claims.
Accordingly, we will affirm the judgment of the District Court in part, vacate the
judgment in part, and remand for further proceedings consistent with this opinion.
4

